T        estimony


                    STATEMENT OF
                     ELEANOR HILL
      INSPECTOR GENERAL, DEPARTMENT OF DEFENSE
             BEFORE THE SUBCOMMITTEE ON
         NATIONAL SECURITY, VETERANS AFFAIRS,
             AND INTERNATIONAL RELATIONS
          COMMITTEE ON GOVERNMENT REFORM
        UNITED STATES HOUSE OF REPRESENTATIVES
  ON DOD VULNERABILITIES TO WASTE, FRAUD AND ABUSE



Report Number 99-088        DELIVERED: February 25, 1999



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Subcommittee:



I am pleased to have this opportunity to discuss Department of

Defense (DoD) vulnerabilities to waste, fraud and abuse, as well

as opportunities for continuing the momentum developed over the

past few years toward management reforms and improvements.    My

testimony today will cover the ten areas where we believe

further management improvement is particularly important, based

on recent audit and investigative results.   As requested in your

invitation letter, my remarks will parallel my office’s response

of December 3, 1998, to a joint request from the House Majority

Leader and the Chairman, House Government Reform Committee, to

identify those problem areas.



We estimate that about 98 percent of the audits conducted by my

office and most of our approximately 1,700 open criminal

investigative cases relate directly or indirectly to the 10 high

risk areas.   In each of those areas, there are numerous problems

that are interrelated, complex and involve a wide range of

organizations.   Many specific problems, such as inaccurate

financial information, are relatively long-standing.   Others,

such as large scale computer intrusion, have emerged only

recently.   Let me briefly summarize for you our concerns, and

our efforts, in each of these areas.
                                                                    2




Top 10 DoD Problem Areas



Financial Management.   The DoD remains unable to comply with the

various laws requiring auditable financial statements for its

major component funds and for the Department as a whole.     For

fiscal year 1997, only the Military Retirement Trust Fund

financial statements received a clean audit opinion; we were

unable to provide favorable opinions on any other major

statement.   We anticipate similar results when we issue opinions

next week on the DoD statements for FY 1998.   Due to the

underlying system problems, we cannot forecast a significant

difference in overall financial statement audit opinions for

several more years.   The inability of DoD systems to produce

reliable annual financial statements also means that DoD

managers and commanders lack much of the timely, accurate and

useful financial information that they need for program decision

making on a day to day basis.



I am pleased to be able to report, however, that the past year

has brought considerably improved focus on the problem.     The

Secretary of Defense has explicitly directed the increased

involvement of all functional managers.   A successful joint

effort by senior OMB, GAO, and DoD accounting and auditing
                                                                   3


personnel has resolved many questions that had impeded progress

toward compliance with the new Federal accounting standards.

For the first time, the Department has an agreed-upon action

plan, with explicit milestones and delineation of

responsibility, to address the new standards and the “show

stoppers” blocking compliance with those standards and the

financial reporting statutes.



Although progress has been made, the DoD remains unable to avoid

having several billions of dollars of disbursements remain

unmatched to valid contracts or orders at any given time.

Recent Senate hearings also raised legitimate concerns about the

vulnerability of DoD finance operations, especially to fraud in

the vendor pay area.   The Defense Criminal Investigative

Service, the criminal investigative arm of my office, is working

with the Defense Finance and Accounting Service to decrease that

vulnerability through such measures as increased fraud awareness

training and we have about 80 open criminal investigations

related to finance operations.



The recent case of Staff Sergeant Robert Miller illustrates the

threat and vulnerability to fraud in this area.   Miller and an

accomplice were the subjects of a joint investigation by my

office and the Office of Special Investigations, U.S. Air Force.
                                                                    4


Miller was sentenced to 12 years in prison, dishonorable

discharge, reduction in rank to E-1 and forfeiture of all pay

and allowances for stealing or attempting to steal $938,535 in

Treasury checks from a DoD finance office in Dayton, Ohio, where

he supervised a finance branch.



The efforts of the Defense Criminal Investigative Service over

the past 5 fiscal years have resulted in 73 convictions and

recoveries of $4.9 million from cases related to DoD finance

operations.   Despite those successes, the lack of adequate audit

resources to assess finance operation controls on a continual

basis hampers efforts to minimize risk in this area.   Although

we issued 91 financial audit reports since October 1997, the

great majority of those were on required financial statements,

not the high risk vendor pay area.



On a positive note, the DoD ended several years of indecision

and implemented a new procedure in October 1998 to improve

safeguards for appropriation integrity in the contractor

progress payment process.   Likewise, at our urging, an effort

was made to discourage the Military Departments and Defense

agencies from unnecessarily creating overly complex contracts

and accounting requirements that increase the likelihood of

accounting errors.   It is not yet evident, however, that those
                                                                   5


organizations are aggressively carrying out the Department’s

guidance.



Weapon System Acquisition.   New weapon systems are needed by

all Military Services to avoid block obsolescence, keep pace

with technological change and reduce life cycle costs.   The

Joint Chiefs of Staff, other DoD leadership, and the Congress

have acknowledged the significant gap between modernization

requirements and planned funding.   Increasing the weapons

procurement share of the budget is a high priority DoD budget

goal.   In addition, there are compelling technological and

financial reasons to accelerate the acquisition cycle and cut

per unit costs, especially overhead costs.



The Department is relying on very substantial near and long term

savings from reengineered logistics practices and civilian

personnel reductions to enable the planned migration of funds

into the procurement accounts.   Despite the recent increases in

the DoD topline budget, it is by no means certain that support

costs can be cut enough to sustain a robust modernization

effort.   In addition, despite many positive acquisition reform

initiatives, we have seen no significant across-the-board

improvement yet in cycle time and unit cost.   It is also by no
                                                                  6


means clear that the ongoing deep cuts in the DoD acquisition

corps will result in better program management.



We have issued 29 audit reports on weapon system acquisition

since October 1997.   Findings were related to such matters as

the processes used to determine the types and quantities of

systems needed, acquisition strategy and upfront planning for

logistical support.



Other Procurement Issues.   The vast majority of the several

million annual DoD contracting actions involve equipment,

ammunition, supplies and services, rather than major weapon end

items such as new ships and missiles.   The sheer volume and

great variety of DoD contracting activity make this a high risk

area.   Acquisition reform initiatives such as promoting

electronic commerce and encouraging the use of commercial

purchasing practices are focused on expediting procurements,

cutting red tape and reducing overhead costs.   However, much

more needs to be done to ensure that the DoD acquisition work

force is capable of transitioning to new practices and that

those new practices include reasonable controls to safeguard

against the continuing threat of procurement fraud and

mismanagement.
                                                                   7


We have issued 33 audit reports in this area since October 1997,

approximately half of the coverage that we were able to provide

before our resource cutbacks began.   We currently have over 800

open criminal cases on bribery, conflict of interest,

mischarging, product substitution, false claims and other

procurement matters.   Over the past 5 fiscal years, our cases

related to procurement have resulted in 948 convictions and $1.1

billion in recoveries.



Three audits during 1998 on prices being paid for DoD aviation

spares under commercial type contracts illustrated the

difficulty of adopting buying and pricing practices that were

not yet well understood by Government personnel.   The audits

indicated that the DoD was paying up to several times more per

item, when purchasing from commercial catalogs, than when

previously contracting under traditional procedures.    The

Defense Authorization Act for Fiscal Year 1999 included

provisions requiring the Department to address the problem

identified by the audits and we have worked with DoD acquisition

officials to develop an extensive training program for DoD

procurement personnel.   We do not believe that this problem is

solved yet, however, and we are doing further audit work on

spares pricing.
                                                                       8


We strongly support further refinement of the acquisition rules

and practices that are in place, as well as aggressively seeking

new opportunities for genuine reform.    It is particularly

important to put more emphasis on reducing costs for procuring

services, because the DoD actually spends more on services,

including research, than on procuring hardware.    However, we

caution that all reform initiatives must be carefully crafted

to safeguard the taxpayers’ interest.    The DoD administers over

$800 billion in open contracts and plans to award $135 billion

of new contracts in the current fiscal year.    This massive and

extremely diversified program requires careful oversight.      We do

not support broad attacks on such essential safeguards as

contract audits, the Cost Accounting Standards, the False Claims

Act and the Truth in Negotiations Act.



Health Care.   The Defense Health Program serves 8.2 million

eligible beneficiaries through a combination of DoD inhouse and

outsourced care.   Most of the latter is purchased through

managed care support contracts under the TRICARE Program.     Total

health care costs are nearly $16 billion annually.



As in the overall health care sector of the US economy, the

Defense Health Program is attempting to quell strong cost growth

pressure without compromising the quality of care.   The DoD
                                                                    9


flexibility is constrained because its system must be capable of

shifting to a wartime mobilization mode at any time.   Obviously

there are major differences in the medical skills and supplies

needed to treat peacetime patients, who are mostly retirees and

dependents, and wartime casualties.   The Defense Health

Program’s cost containment challenges also are exacerbated by

the continued lack of good cost information and significant

levels of fraud, particularly by some private sector providers.

We have issued 6 audit reports since October 1997 on health care

issues, including alcohol and tobacco related DoD health care

costs and DoD reluctance to put malpractice information into the

National Practitioners Data Base.   Given the size and complexity

of the Defense Health Program, this is marginally adequate audit

coverage, but all that available resources allow.



To combat health care fraud, the Defense Criminal Investigative

Service has an active partnership with the TRICARE Program

Office.   This high degree of cooperation and the special

priority that we have given to health care fraud have led to a

significant increase in the number of criminal cases in this

area.   We currently have about 500 open criminal investigations

on health care fraud.   The efforts of the Defense Criminal

Investigative Service in this area over the last 5 fiscal years

have resulted in 343 convictions and $1.0 billion in recoveries.
                                                                  10




Supply Inventory Management.   The DoD logistics community has

always been a proactive user of audit support and we have issued

19 audit reports on inventory management since October 1997.

The Department has reduced wholesale supply stocks by nearly a

third and is pursuing a number of logistics reform initiatives

to reduce warehousing requirements, implement more direct vendor

delivery, and reduce the time between when a user puts a request

into the logistics pipeline and when the needed item is

delivered to that user.   Processes for recalculating what

quantities need to be stocked and for distributing items most

efficiently need additional work, however.



Spare parts shortages are being reported more frequently by

operational units and audits continue to show that war reserves

are overstocked in some locations, but short of critical items

in others.   The Department also has not overcome problems

identified by auditors on the inaccurate demilitarization coding

of items before disposal.   Fraud and inappropriate disposal

practices remain particular problems in the disposal area, where

we have about 70 open criminal investigations.   This is an

intrinsically high risk area, but the working relationship

between my office and the Defense Logistics Agency is very good.

Over the past five fiscal years, our efforts on property
                                                                   11


disposal related cases have resulted in 46 convictions and $.7

million in recoveries.



An example of a successful investigation involving DoD excess

property was Operation Breechblock, a joint investigation by my

office and the Federal Bureau of Investigation.    A number of

obsolete combat vehicles and various equipment, including

operational TOW missile launchers, were stolen from Fort McCoy,

Wisconsin.   The vehicles were destined to be used as targets on

military firing ranges, but Government employees responsible for

the vehicles accepted bribes and diverted the vehicles to

private individuals.    Documentation was falsified to reflect

that the vehicles were destroyed on the firing range, although

they were never placed on the ranges.    The investigation

resulted in the indictment of seven individuals (2 Government

employees and 5 private citizens), individual prison terms of up

to 8 years, and fines and penalties totaling over $1.2 million.



Year 2000 Conversion.    The DoD depends heavily on automated

information processing by about 28,000 systems, 2,274 of which

are considered mission critical.    In addition, weapon systems,

facilities and equipment have millions of embedded

microprocessor chips.    Because of hardware and software

limitations, many systems and processors whose functions are
                                                                  12


date sensitive will not work properly when post-December 31,

1999, dates are introduced.   In addition, systems that are

linked to other systems are vulnerable to failures if all data

exchange partners have not made their systems “Y2K compliant”

and preserved interoperability when making those fixes.   Data

exchange partners for DoD systems include allies, coalition

partners, states, other Federal agencies, the National Command

Authority and private sector suppliers.



Identifying and fixing computer code that is not Y2K compliant

are generally not difficult from the purely technical

perspective; however, DoD faces a $2.5 billion cost and a

monumental management challenge because of the scale of the

conversion problem, a belated start in seriously addressing it,

and the legacy of past inattention to good information

technology management principles.   As of January 1999,

approximately 77 percent of mission critical systems have been

certified as Y2K compliant.   The Department is intensively

managing the remaining non-compliant systems and other facets of

the problem, such as determining the readiness of suppliers and

other countries.   During the past few months, the pace of the

DoD effort has accelerated significantly and the critical system

end-to-end testing and operational evaluations are now

beginning.   We believe that the number and severity of the
                                                                     13


remaining Y2K conversion issues will not be readily apparent

until at least June 1999, when more testing results are

available.     This is our top discretionary audit priority and we

have issued about 50 reports on it over the last year and a

half.



Other Information Technology Issues.    As indicated in 21 recent

audit reports, the DoD faces major problems related to the

acquisition of computer systems and the security of both old and

new systems.    Currently the Department is attempting to develop

a new generation of better integrated automated systems.

Virtually every business sector--procurement, supply,

transportation, finance and others--is significantly changing

its processes and relies heavily on the introduction of new

systems to support those new processes.    The number of system

acquisition migration and modification projects therefore is

huge.   This poses a formidable management challenge, because the

DoD track record for automated system development has not been

good for many years.    Projects have tended to overrun budgets,

slip schedules, evade data standardization and interoperability

requirements, and shortchange user needs.    The huge effort

needed to develop an accurate inventory of DoD information

systems and their interfaces in order to assess vulnerability to

the year 2000 computing problem has underscored the need to
                                                                    14


revamp the lax management controls that led to the runaway

proliferation of systems.



With passage of the Clinger/Cohen Act, the DoD has been

challenged, like other Government agencies, to improve its

processes for information technology resource investments.    The

Department has sought to implement both the Clinger/Cohen Act

and other acquisition reform measures simultaneously.   We have

concerns that a good balance has not yet been found to allow

system program managers enough flexibility to promote

innovation, while maintaining an effective management oversight

structure to assure that DoD priorities are met and the

$10 billion annual DoD information technology budget is wisely

spent.   For example, audits have indicated that cost, schedule

and performance baselines are not always established for

information system development projects.



The conflicting priorities confronting system developers and

users, the technology-driven trend toward open systems, and the

still unproven new management oversight mechanisms appear to be

complicating the already difficult DoD information assurance

problems.   Audits continue to show lax security measures and

inadequate focus by program managers on the threat, despite

clear awareness at senior levels of the need for a very high
                                                                   15


priority for information assurance.   Estimates of the number of

intrusions attempted by hackers into DoD systems each year run

as high as 250,000.   It is likely that Y2K conversion is

temporarily distracting both resources and management attention

from security concerns.



Positive developments in this area include the recent formation

of the Computer Network Defense Joint Task Force, which is led

by the Deputy Director, Defense Information Systems Agency.   The

Task Force will coordinate and spearhead DoD efforts to detect

and react effectively to hacking and other attacks on DoD

automated systems.    The Defense Criminal Investigative Service

has established a Defense Information Infrastructure Intrusion

Investigation Team, which works with Military Department agents

in what we term the DoD Law Enforcement and Counterintelligence

Cell to support the Joint Task Force.   Common criminal schemes

involve unauthorized individuals or groups gaining access to DoD

systems for purposes of theft of technological information,

defacement of websites or other vandalism, including denial of

service.   Due to the global nature of the threat, we coordinate

extensively with the National Infrastructure Protection Center

and other Federal law enforcement agencies on significant

computer intrusions which affect the Defense Information

Infrastructure.   Information is also provided to other
                                                                    16


governmental law enforcement agencies when it is determined that

systems under their investigative cognizance have been

compromised.



Other Infrastructure Issues.    Disagreements between the DoD and

Congress over additional base closures and the distribution of

workload between DoD and private sector maintenance facilities

are major impediments to driving down the Department’s support

costs.   As with supply management, other key infrastructure

areas such as transportation, maintenance and facilities offer

many opportunities to cut costs; however, many logical measures

are highly controversial and it is important not to create

readiness shortfalls when trimming infrastructure.



The DoD is attempting to control overall environmental costs

through a wide variety of measures, including more upfront

emphasis during weapon system or facility design on avoiding the

use of hazardous materials.    At our urging, the Department also

began a pilot program at 18 installations to test the

feasibility of using ISO 14001, which is an international

standard on environmental management systems to improve their

effectiveness, especially in identifying emerging requirements.

The pilot program includes partnerships with environmental

regulators.    Despite these positive actions, however, this
                                                                    17


remains an area where cost containment is difficult and there is

a significant criminal threat in matters such as hazardous waste

handling.    Currently we have about 50 open criminal

investigations related to environmental matters.    Defense

Criminal Investigative Service cases in this area over the past

five fiscal years have lead to 56 convictions and $14.2 million

in recoveries.



Difficulty in collecting reliable cost information with which

to make outsourcing or restructuring decisions is another major

infrastructure management problem.    Audits also indicate

continued problems in determining facility requirements,

especially for housing, where estimates of the cost of

modernizing DoD facilities run as high as $30 billion.    The

Department also continues to struggle with finding the correct

sequence between business process reengineering, outsourcing

decisions and staff reductions.    We have issued 49 audit reports

in the diverse infrastructure area since October 1997.



Readiness.    The difficulties in maintaining sufficient military

readiness recently have been the subject of congressional

hearings, public dialogue and the President’s budget themes for

FY 2000.    My office has not performed any recent evaluations of

military personnel recruiting or retention.   We have, however,
                                                                    18


assessed how readiness posture is affected by the changing

threat environment, which now includes bona fide information

warfare threats and concerns about weapons of mass destruction

in the hands of terrorists.     Accurate reporting of unit level

readiness status remains a major concern.     In addition, audits

have indicated weaknesses related to chemical and biological

defense preparedness and communications capability.     We have

issued 12 reports on matters directly related to readiness since

October 1997.   Our audit coverage of readiness issues has been

severely impacted by resource constraints and audit requirements

related to the year 2000 problem.



Turbulence From Change.     For most of the past decade and for

perhaps the first time, all functional areas within the DoD have

been engaged in fundamental reform and process reengineering

efforts at the same time.    This is a promising trend, because

those areas are interlinked and piecemeal reform has generally

failed in the past.   The Department confronts a huge task,

however, in coordinating and integrating the hundreds of reform

initiatives so that they do not work at cross purposes with each

other or overwhelm the work force.    In addition, the turbulence

created by wholesale change brings additional difficult

challenges.
                                                                  19


Conflicting priorities, downsizing, outsourcing, dependence on

new and unproven systems or processes, deemphasis on management

controls and oversight, reorganization, sustained requirements

growth despite resource constraints, and the continued,

unexpectedly intensive, need for frequent US military

deployments are putting considerable strain on the Department’s

human resources.   This turbulent period is one of increased

vulnerability to waste, fraud and mismanagement.



The Department can best mitigate that increased risk by paying

careful attention to the need to improve, not eliminate,

internal controls.   One of the best ways to do so is to maintain

a robust DoD audit and investigative effort.   Until recently the

trend has been in the wrong direction.   Severe cutbacks in my

office’s audit and investigative resources between 1995 and 1999

have reduced coverage in most of the high risk areas discussed

in this testimony.   Fortunately, the Department recently altered

its plan for further resource reductions in my office, but we

remain stretched very thin at a time of critical change within

the Department.



Summary
                                                                  20


As the largest and most complex government agency in the world,

the DoD faces huge management challenges.   In all of the areas

that I have discussed, there is a mix of significant recent

progress toward reform and continuing major problems.

Generally, the Department has been very supportive of our

anti-fraud activities and also responsive to audit advice on

how to improve management in these risk areas.   Managers have

agreed with about 96 percent of our audit recommendations and

have completed action on over 5,200 audit recommendations over

the past five years, realizing estimated monetary benefits of

$18.6 billion.



To assist the Congress in its oversight role, we will continue

to provide copies of all audit and evaluation reports to about a

dozen congressional committees and subcommittees, including

yours.   Summaries of examples of our individual audit reports

and closed criminal cases are attached to this statement.   In

addition, we will continue highlighting DoD high risk areas in

the semiannual reports from my office to the Congress.



Thank you again for your interest in and support for our work at

the Department of Defense.



Attachment
              Examples of Recent Inspector General,
                Department of Defense, Reports on
                    Defense High Risk Areas and
                  Closed Criminal Investigations



Report No. 99-069, Summary of Audit Results—DoD Information
Assurance Challenges, January 22, 1999.

The DoD Annual Statements of Assurance for FYs 1996 through 1998
identified a material management control weakness in the area of
information systems security. Audits have been an important tool
in identifying that weakness. In February 1997, the General
Accounting Office designated information security as a high risk
area throughout the Federal Government, because weaknesses in
information security, in the face of the growing threat, could
cause critical Government operations to be highly vulnerable to
waste, fraud, abuse, and mismanagement. Some DoD estimates of
the number of annual hacker attacks on DoD systems run as high
as 250,000. This report summarizes 79 reports and reviews
pertaining to DoD organizations or functions and their
information assurance efforts. The most common finding was poor
internal access control. The results of the audits support the
need for a more sustained DoD information assurance effort.

Report No. 99-061, M41 Protection Assessment Test System
Capabilties, December 24, 1998.

The M41 Protection Assessment Test System is a portable
instrument designed for face-fit-testing nuclear, biological, and
chemical protective masks. The Army has procured 5,954 M41
Protection Assessment Test Systems for the Army, Navy, Air Force
Marine Corps, and surety sites.

The audit followed up on our previous work concerning the
adequacy of protective equipment and related test criteria. We
concluded that, while progress had been made, several issues
remained open. Those issues included the suitability of the M41
tester as an operational or combat condition tester, Army fit-
factor criteria, uncalibrated testers and training for users of
the system.

The Office of the Secretary of Defense generally concurred with
the report, but the Army comments to the draft report were
nonresponsive and we requested reconsideration. We await
additional Army comments to the final report. If open issues
remain, DoD audit followup procedures provide for the Deputy
Secretary of Defense to adjudicate such matters.
                                                                   2

Report No. 99-059, Summary of DoD Year 2000 Conversion—Audit and
Inspection Results, December 24, 1998.

This report summarizes 142 audit and inspection reports, reviews
and memorandums pertaining to DoD organizations or functions and
their year 2000 conversion progress. The reports were issued
from August 1997 to December 1998. The most commonly identified
problems were initial lack of management attention to the
conversion challenge, poor contingency planning, insufficiently
rigorous assessment of system vulnerability, premature
certification of system compliance, lack of information on
suppliers and other countries, infrastructure issues,
insufficient coordination of test plans and inaccurate status
reports. Management concurred with virtually all findings and
took numerous corrective actions.

Report No. 99-012, Use of Funds Appropriated for Major Defense
Systems, October 14, 1998.

Nine of ten major program offices in the audit sample lacked cost
accounting systems to track and report program costs by
functional categories, such as systems engineering, program
management, logistics, departmental assessments, test and
evaluation, and acquisition of weapon-systems hardware and
software from prime contractors. Because the nine programs that
we reviewed did not have cost accounting systems, we used budget
execution reports to identify functional cost categories within
the various appropriations and detailed cost activities
associated with those cost categories.

The program offices for the 10 systems reviewed used an average
of about 69 percent of their program dollars to fund prime
contractors for the development and acquisition of weapon systems
hardware and software. Those offices also used an average of
about 31 percent of their funds for other than weapon systems
hardware and software acquisition. The other costs involved
management tasks prescribed by DoD regulations and mission
support. In addition, Congress and various DoD management levels
directed realignment of program funds for a wide range of other
requirements. Examples were small business innovative research,
working capital fund cash shortfalls, Bosnian operations and
anti-terrorism initiatives. Because the DoD has several
initiatives under way to reduce overhead, improve cost
accounting, and achieve better acquisition program stability,
we made no additional recommendations. However, the report
illustrates some of the reasons why procurement funds do not
stretch as far as initially planned for most programs.
Management concurred with the report.
                                                                   3

Report No. 99-009, Coordination of Electromagnetic Frequency
Spectrum and International Telecommunications Agreements,
October 9, 1998.

At least 89 weapons and telecommunications systems were deployed
within the European, Pacific, and Southwest Asian theaters
without the proper frequency certification and host-nation
approval. In addition, the Military Exchanges were selling
products that were not covered by or compliant with host-nation
frequency agreements. As a result, much equipment deployed
without host-nation approval and frequency assignments cannot
be utilized to full capability for training, exercises,
or operations without risking damage to host-nation relations
and degraded performance. The program costs associated with
15 of the 89 systems, whose use is hampered in foreign nations,
totaled almost $39.5 billion.

The DoD did not periodically evaluate the validity of
international telecommunications agreements with allied nations,
providing a strategy of coordinating accountability of
international telecommunications agreements throughout the
communications management community, or ensure that the unified
commands and Defense Information Systems Agency complied with
existing policies and guidelines governing international
telecommunications agreements. The most recent register of
telecommunications agreements published by the Defense
Information Systems Agency was over 4 years old. As a result,
the ability to plan, manage, and properly allocate scarce
telecommunications resources is hampered and telecommunications
support to the two major theater war scenarios may be impaired.

Management generally concurred and corrective actions are being
initiated.

Report No. 98—168, DoD Implementation of the National
Practitioner Data Bank (NPDB) Guidelines, June 26, 1998.

At the request of the Assistant Secretary of Defense (Health
Affairs), we reviewed procedures for reporting DoD health care
practitioners associated with malpractice payments or subjected
to adverse privileging actions.

Although DoD reporting of malpractice payments to the NPDB
was incomplete, it conformed to DoD policy, which mandated
only partial reporting. Of the 124 malpractice payment records
reviewed, 87 (70 percent) had not been reported to the NPDB, and
those reported had not been submitted in a timely manner. As a
result, the NPDB had incomplete and untimely information and
health care entities did not have all relevant information
available for making credentialing and privileging decisions.
                                                                   4

We did not believe that the DoD partial reporting policy conforms
to congressional intent or Department of Health and Human
Services preference. Management comments to the report were
responsive and corrective action is being taken.

Report 98-155, Depot Source of Repair Code, June 15, 1998.

The audit was suggested by the Joint Logistics Commanders. The
overall objective was to evaluate controls over the depot source
of repair (DSOR) coding process. Specifically, we reviewed the
procedures and controls DoD personnel used to ensure accurate
code input and transfer to the Federal Logistics Information
System. The intent of DSOR coding is to facilitate efficient
logistics support planning.

Of 410,308 coded nonconsumable items, an estimated 268,104 (65.3
percent) were inactive. For the remaining active items, an
estimated 108,973 (26.7 percent of 410,308 total items) had
erroneous DSOR codes. Consequently, DoD maintenance managers
were not always aware of established depot repair capabilities
including duplicate maintenance facilities for 38 of 145 active
items reviewed. This situation contributes to the excess
capacity in the DoD depots and hampers the efficiency of the
maintenance program. Management concurred.

Report No. 98-072, Defense Business Operations Fund Inventory
Record Accuracy, February 12, 1998.

This was the fourth in a series of reports on Defense Business
Operations Fund (DBOF) inventory issues. The overall objective
of the audit was to determine whether inventory amounts on the FY
1996 DBOF consolidated financial statements were presented fairly
in accordance with the comprehensive basis of accounting
described in OMB Bulletin No. 94-01.

The DBOF inventory records were not accurate. An estimated 15.8
percent, or about one of every six inventory records represented
by our sampling, was in error. The errors caused inventory
records to be misstated (overstated and understated) by an
estimated $3.9 billion. The net misstatement resulting from
those errors was an estimated $336.3 million understatement of
the $89 billion of on-hand inventory used to prepare FY 1996 DBOF
financial statements. That net amount of error made the value of
DBOF inventory on the financial statements appear accurate
because the overstated amounts offset most of the understated
amounts. However, the 15.8 percent error rate represented a
material management control weakness. The inaccurate records
greatly limited the reliability of the financial data.
Inaccurate inventory records also distorted the reports used by
inventory managers. Additionally, the inaccurate records can
                                                                  5

reduce the effectiveness of logistics support when military
customers urgently need inventory. The DoD Inventory Control
Points and Retail Storage Activities did not implement a plan
to conduct an annual statistical sample of the FY 1996 DBOF
inventory as required by DoD policy.

Management concurred with the report, which illustrates one of
the many impediments to favorable audit of opinions on DoD
financial statements.

Report No. 98-063, Defense Logistics Agency Product Quality
Deficiency Program, February 5, 1998.

We initiated the audit in response to a request from the
Director, Defense Logistics Agency (DLA). We determined whether
defective products were reported by customers and, if reported,
whether they were promptly investigated and corrected. We also
reviewed progress in establishing and implementing the DoD-wide
Deficiency Reporting System Program.

The DLA was correct in assuming there were ways to improve the
product quality deficiency program. Deficiency reports were
initiated when nonconforming materials were identified, and
investigations into the causes of the deficiencies were promptly
conducted. However, DLA product quality deficiency
investigations did not always adequately identify the cause of
the reported product deficiencies. As a result, the inventory
control points missed opportunities to identify contractors with
performance problems, and improve product quality. Also, the DLA
Automated Best Value System for tracking contractor past
performance did not fully reflect contractor quality problems.
As a result, DLA increased its risk of procuring products from
contractors with poor past performance. Management concurred.

Report No. 98-064, Commercial and Noncommercial Sole-Source Items
Procured on Contract N000383-93-G-M111, February 6, 1998.

This was the first of a series of reports in response to Defense
Hotline complaints that for sole-source commercial items (spare
parts) DLA paid contractor catalog prices that were several
hundred percent higher than the cost-based prices DLA previously
paid for the items. The primary audit objective was to determine
whether there was merit to the complaints.

The complaint was substantiated, although no laws were broken.
The DLA paid modestly discounted catalog prices that were
significantly higher than the cost-based prices DoD previously
paid for the items. For CYs 1994 through 1996, DLA paid about
$4.5 million (in 1997 constant dollars) or an average of about
280 percent more than fair and reasonable prices for the
                                                                   6

$6.1 million of commercial items procured under this contract.
The DLA contracting officers also did not effectively negotiate
prices for other (noncommercial) sole-source items. Through cost
analysis, we determined that DLA paid about $1 million (or more
than 30 percent) above the fair and reasonable price.

In response to the audit, DLA awarded an indefinite-delivery
corporate contract for 216 sole-source commercial items at prices
DLA considered fair and reasonable. Estimated savings over a 6-
year period are $83.8 million. The DLA is seeking a similar
pricing arrangement for 1,567 other sole-source noncommercial
items.

Report No. 98-025, Management and Administration of International
Agreements in the Department of Defense, November 19, 1997.

This report was the second in a series addressing the management
and administration of international agreements in DoD, based on
observations and information available within the Office of the
Secretary of Defense, the Joint Staff, the U.S. Pacific Command,
and the U.S. Central Command. The overall audit objective was
to evaluate whether the management and administration of
international agreements between the U.S. and the countries in
Southwest Asia and the Pacific Region support joint operations.
We also evaluated whether the international agreements
effectively met the requirements of U.S. Forces in support of
U.S. national interests.

The DoD is not adequately overseeing the management and
administration of its many thousand agreements with other
countries. The DoD elements have not effectively inventoried,
analyzed, and updated those agreements and planners lack
sufficient information concerning them. Management concurred.

Report No. 98-023, Implementation of the DoD Joint Technical
Architecture, November 18, 1997.

The objective was to assess progress in implementing information
processing standards as a means of achieving systems
interoperability. Specifically, we reviewed DoD guidance and
plans for implementation of the Joint Technical Architecture
(JTA).

The DoD did not have an integrated or coordinated approach to
implementing JTA. As a result, DoD had little assurance that JTA
would meet interoperability goals or DoD would efficiently use
the over $10 billion invested annually in information technology.

Management concurred.
                                                                  7

Report No. 98-006, DoD Family Housing Requirements Determination,
October 8, 1997.

The House National Security Committee Report accompanying the
National Defense Authorization Act for FY 1996, Report No.
104-131, June 1, 1995, questioned the different methodologies
used by the Services for measuring available housing for
military families in local housing markets surrounding military
installations. Based on the Report, we performed a detailed
comparison of the different methods used by each Service to
evaluate available housing in local markets and an analysis
of the appropriateness of a Department–wide standard for the
housing market analysis.

The Services use different policies, processes and procedures
to incorporate what they perceive as their particular needs into
housing planning. Those practices vary significantly in cost and
do not produce comparable results for determining the family
housing requirements. As a result, OSD and Congress do not have
sufficient assurance that current family housing construction
budget submissions address the actual family housing requirements
of the Services in a consistent and valid manner. Management
concurred.
                                                                 8

                                                     OCT 15 1998

MEMORANDUM FOR CORRESPONDENTS

    The Office of Inspector General (OIG), Department of Defense
(DoD), announced today that on October 13, 1998, Judge H. Dale
Cook, U.S. District Court, Tulsa, OK, sentenced the following
individuals for conspiracy to defraud the Federal Government:
T. Robert Hughes, an attorney from Fort Collins, CO, to 24 months
imprisonment, 3 years supervised probation, to pay $236,158 in
restitution to the U.S. Army Corps of Engineers (USACOE) and a
$50 special assessment; Stephen L. Schluneger, Scottsdale, AZ, to
12 months imprisonment, 3 years supervised release, to pay
$10,000 restitution and a $50 special assessment.

     Also indicted and convicted in the-case was Thomas S.
Rhoades, Colorado Springs, CO. Rhoades died of natural causes on
June 21, 1998. ARCO Properties, Limited, and ARCO Business
Services, two business trusts controlled by Hughes, were also
convicted during the trial in February 1998. ARCO Properties was
placed on 3 years probation and ordered to pay restitution of
$236,115.03 and a special assessment of $200. The jury convicted
ARCO Business Services during the same trial but found the entity
had quit the conspiracy. Judge Cook dismissed the count based on
a motion by the defense.

     Rhoades and Schluneger were personal sureties on a USACOE
contract to sandblast and paint the gates of the locks and dams
on the Arkansas River in Oklahoma. When the contractor
defaulted, Rhoades and Schluneger signed a takeover agreement to
complete the work. They, along with Hughes, an attorney and
trustee of ARCO Business Services and ARCO Properties, devised a
scheme to defraud the Government. After the contractor
defaulted, there was $1,642,739.81 remaining on the contract. As
sureties, Rhoades and Schluneger were limited to costs and
expenses by the takeover agreement. They found a subcontractor,
Skyline Painting (Skyline), who agreed to complete the work for
$1.2 million. Rhoades and Schluneger never informed the USACOE
about the subcontract agreement. As progress payments were made
by the USACOE to Rhoades and Schluneger, payments were made to
Skyline. However, Skyline was required to pay the ARCO entities
29 percent of the gross as a finder's fee and for engineering
consulting services, which were bogus charges. The ARCO entities
kept a share of each payment, then paid a kickback to Rhoades and
Schluneger. By the time Skyline was forced to discontinue work
on the project, due to losses as a result of floods, Rhoades,
Schluneger and Hughes had stolen $236,000.

    The investigation was conducted by the Defense Criminal
Investigative Service (the investigative arm of the OIG, DoD).
The prosecution was handled by Assistant U.S. Attorney Gordon
Cecil, Tulsa, OK.

                                -END-
                                                                   9

                                                     AUG 24 1998

MEMORANDUM FOR CORRESPONDENTS

    The office of Inspector General (OIG), Department of Defense
(DoD), announced today that on August 20, 1998, Charter Hospital
Orlando South (Charter Hospital), Kissimmee, FL, reached an
agreement with the Department of Justice (DoJ) to pay $4.7
million to settle a civil complaint. Two former employees of
Charter Hospital filed the complaint on November 6, 1994

     An investigation, found that Charter Hospital improperly
admitted and retained patients for psychiatric treatment who were
actually suffering from dementia, organic brain disorders and
symptoms of Alzheimer's Disease. The investigation determined
that Charter Hospital personnel knew such treatment was not
medically necessary for patients with those conditions. The
patients included individuals covered by TRICARE, which is the
DoD medical program that pays the medical bills of military
retirees, dependents and other specified individuals who receive
medical care from civilian doctors and facilities. The
investigation further found that Charter Hospital personnel
falsified patient medical records in order to receive Government
reimbursement.

    The investigation was conducted by the Defense Criminal
Investigative Service (the investigative arm of the OIG, DoD).
T. Reed Stephens, Trial Attorney, Civil Division, DoJ, handled
the prosecution.


                                -End-
                                                               10

                                                      JUL 24 1998
MEMORANDUM FOR CORRESPONDENTS

    The Office of Inspector General (OIG), Department of Defense
(DoD), announced today that on July 24, 1998, Charles Cagegia was
sentenced in U.S. District Court, Eastern District of New York,
by Judge Arthur Spatt. Cagegia was sentenced to 21 months in
prison, followed by 3 years supervised release, a fine of $9,000
and a $200 special assessment fee.

    On January 29, 1998, a Federal grand jury returned a one-
count indictment against Cagegia charging him with a conspiracy
to defraud the Internal Revenue Service (IRS) by committing
corporate income tax evasion. On April 21, 1998, a one-count
criminal information was filed against Cagegia charging him with
a separate conspiracy to defraud the IRS by committing corporate
tax evasion. On April 24, 1998, Cagegia pled guilty to both the
indictment and the information.

    Cagegia operated various businesses, including messenger
services operated under the names of We-Go Express and CKD
Corporation and trucking companies under the names of Suffolk
Distributing and Marietta Trucking. The indictment was the
result of an ongoing investigation into Royce Aerospace Materials
Corporation (Royce), Farmingdale, NY, a former DoD subcontractor
that provided raw materials such as aluminum and titanium to
prime DoD contractors. Between 1990 and 1996, Robert Berger, as
president of Royce, conspired with Cagegia by devising a
fictitious invoicing scheme that was used to generate cash out of
Royce.

     As part of the conspiracy, Cagegia provided the names of
numerous fictitious companies to Berger. Checks were then
written and issued from Royce to these fictitious companies and
delivered back to Cagegia. Cagegia then cashed these checks
through various methods, including bank accounts held under his
various business names. The cash was then delivered back to
Berger, less a fee kept by Cagegia, and was used to pay kickbacks
to prime DoD contractors.

    The criminal information charged that between 1989 and 1996,
Cagegia’s various businesses received checks from customers for
work performed. These checks were then deposited to the same
bank accounts held by Cagegia that were used to cash Royce
checks. Cagegia then withdrew this money by writing checks to
fictitious individuals and/or to himself and cashing these checks
through various “check cashers.” Cagegia failed to file
corporate tax returns on the income he received from these
various businesses.
                                                               11


     This investigation was conducted jointly by the Defense
Criminal Investigative Service (the investigative arm of the OIG,
DoD) and the Internal Revenue Service. Prosecution was handled
by Trial Attorneys Barry Jonas and David Bloch, Tax Division,
Department of Justice.
                              -END-
                                                                 12

                                                     APR 13 1998

MEMORANDUM FOR CORRESPONDENTS

    The office of Inspector General (OIG), Department of Defense
(DoD), announced today that on April 9, 1998, the Raytheon
Company (Raytheon), entered into a civil settlement agreement
with the Government in which Raytheon agreed to pay $2.7 million.
The agreement settles allegations that Raytheon charged the
Government for costs that Raytheon had incurred in marketing its
products to foreign governments.

     Since 1986, Raytheon's cost accounting procedures have
provided for separate accounting treatment of foreign marketing
costs and domestic marketing costs. These procedures, and the
Cost Accounting Standards of the Federal Acquisition Regulations,
require that Raytheon's foreign marketing costs be allocated to
contracts between Raytheon and its foreign customers and that
domestic marketing costs be allocated to Government contracts.
The Government has asserted that most of the activities of the
Raytheon international development function were foreign
marketing activities and that Raytheon improperly classified the
costs as "division administration" costs allocable to Government
contracts, when they were not.

    The investigation was conducted by the Defense Criminal
Investigative Service (the investigative arm of the OIG, DoD),
with audit assistance from the Defense Contract Audit Agency.
The negotiation of the settlement agreement was handled by
Assistant U.S. Attorney George B. Henderson, District of
Massachusetts, Boston, MA.

                                -END-
                                                                  13

                                                     NOV 20 1997
MEMORANDUM FOR CORRESPONDENTS

    The office of Inspector General (OIG), Department of Defense
(DoD), announced today that on November 19, 1997, the McDonnell
Douglas Aerospace/Douglas Aircraft Company (DAC), Long Beach, CA,
entered into a settlement agreement with the Government in which
DAC agreed to pay $3.1 million to resolve a civil complaint filed
in U.S. District Court, Central District of California, Los
Angeles, CA. The settlement resolves issues relating to cost
mischarging on the C-17 Military Transport Plane (MTP) program.

     The suit alleged that DAC accepted defective, nonconforming
tooling items from subcontractors for the C-17 MTP, in order to
maintain the appearance of meeting production milestones and to
obtain progress payments. It was also alleged that DAC reworked
some of the defective tooling and billed the rework under its
prime contract with the Government, thereby double-billing the
Government for the same tool.

     The DAC, without admitting liability, agreed that of the
$3.1 million settlement they would pay a contract adjustment on
the C-17,MTP program of $2 million in the form of an immediate
payment to the Government. The remaining $1.1 million would
settle the relator's attorney fees and costs.

     The investigation was conducted by the Defense Criminal
Investigative Service (the investigative arm of the OIG, DoD).
Civil prosecution was handled by Attorney David Cohen, Commercial
Litigation Division, U.S. Department of Justice.

                                -End-
                                                                  14

                                                      OCT 7 1997
MEMORANDUM FOR CORRESPONDENTS

  The Office of Inspector General (OIG), Department of Defense
(DoD), announced today that on October 6, 1997, Andrew S.
Shankman was sentenced by Judge Anthony A. Alaimo in U.S.
District Court, Southern District of Georgia, Brunswick, GA, to
87 months incarceration, 3 years supervised release, 400 hours
community service, while under supervised release, and a $6,300
special assessment fee.

     Shankman was found guilty by a jury trial on June 27, 1997,
of 125 counts of conspiracy, mail fraud, wire fraud, dispensation
of controlled substances and money laundering. An investigation
disclosed that Shankman and his company, Shankman/Davidson
Psychiatric Management, Incorporated, employed unlicensed
therapists to provide mental health services to beneficiaries of
the Civilian Health and Medical Program of the Uniformed Services
(CHAMPUS), Medicare and Medicaid, then billed the Government
programs as if Shankman provided the services. The CHAMPUS (now
called TRICARE) is the DoD program that pays the medical bills of
military retirees, dependents and other specified individuals who
receive medical care from civilian doctors and medical
facilities. From 1992 through 1995, Shankman/Davidson received
over $5.2 million from the Government programs.

    The investigation was conducted by the Defense Criminal
Investigative Service (the investigative arm of the OIG, DoD),
the Federal Bureau of Investigation, the Internal Revenue
Service, the Georgia Department of Medical Assistance and the
Georgia Secretary of State Office. Prosecution was handled by
Assistant U.S. Attorney Jeffrey J. Buerstatte, Southern District
of Georgia, Savannah, GA.

                                -End-
                                                               15

                                                     SEP 22 1997
MEMORANDUM FOR CORRESPONDENTS

    The office of Inspector General (OIG), Department of Defense
(DoD), announced today that on September 19, 1997, Teasa Hutchins
Jr., Temple Hills, MD, was sentenced by Judge Albert V. Bryan in
U.S. District Court, Eastern District of Virginia, Alexandria,
VA, to 21 months in prison, followed by 3 years supervised
probation, ordered to pay $168,772 in restitution and a $100
special assessment fee. Sentencing was the result of a June 23,
1997, guilty plea by Hutchins to one count of embezzlement and
theft of public money.

    Hutchins was a civilian employee assigned as a military pay
supervisor in the Finance and Accounting office, Military
District of Washington, Fort Myer, VA. From December 1994
through April 1997, Hutchins misused his supervisory authority
and his specialized knowledge of military pay and the operations
of the Defense Finance and Accounting Service (DFAS) to embezzle
funds. Hutchins was terminated from employment at DFAS following
his guilty plea.

    When he pled guilty, Hutchins admitted to defrauding the U.S.
Government by embezzling approximately $168,772 and converting
the monies for personal use. Hutchins admitted that he carried
out his scheme by fabricating a Social Security Number and
subsequently created a ghost account in the name of a fictitious
military member, Carol M. Jones, Lieutenant Colonel, U.S. Army.
Hutchins admitted he had falsified various documents, forged
signatures, and input the false information into the DFAS
military pay computer system in order to generate and control
payments to the "LTC Jones" pay account. Hutchins then used the
ghost pay account to cause the DFAS over a 28-month period to
make a total of 57 electronic fund transfers (EFT) of "LTC Jones"
pay and allowances to bank accounts owned by Hutchins and his
girlfriend. To initially conceal his receipt of the money,
Hutchins had the first three EFTs, totalling approximately
$8,500, deposited into his girlfriend's checking account in
exchange for cash kickbacks.

    Hutchins had fled to Ohio to avoid prosecution. Before he
was arrested, he had spent approximately $10,000 of the
approximately $52,000 under his control that he had previously
agreed to pay back to the Government. In part payment, Hutchins
has thus far repaid the Government approximately $46,460 and has
agreed to apply the proceeds of the sale of his real and personal
property toward full restitution.
                                                               16


       The investigation was conducted by the Defense Criminal
Investigative Service (the investigative arm of the OIG, DoD),
and the U.S. Army Criminal Investigation Command (USACIDC).
Prosecution was handled by Assistant U.S. Attorney Daniel L. Bell
II, Eastern District of Virginia, Alexandria, VA.

                             - End -
                                                               17

                                                      JUL 24 1997
MEMORANDUM FOR CORRESPONDENTS

     The Office of the Inspector General (OIG), Department of
Defense (DoD), announced today that on July 23, 1997, Leo Anthony
Piatz, Jr., was sentenced in U.S. District Court, Western
District of Wisconsin, Madison, WI, by Judge Barbara B. Crabb.
Piatz was sentenced to 97 months confinement, 36 months of
supervised probation and a $600 special assessment. Piatz was
found guilty of 11 counts, to include, conspiracy, bribery and
unlawful conversion of Government property. A decision on
restitution will be made at a later date.

     On March 11, 1997, Piatz was found guilty after evidence at
trial established that he gave money and other items of value to
various individuals, including civilian U.S. Army employees at
Ft. McCoy, WI. In return, Piatz was allowed to remove military
vehicles and heavy equipment from Ft. McCoy. The equipment
illegally removed included TOW missile launchers, M548 cargo
carriers, snow blowers, a Sheridan Tank, a bulldozer, a 20-ton
crane and forklifts. Piatz, and others, sold, traded or provided
as gifts, the property taken from Ft. McCoy.

     This investigation was conducted jointly be the Defense
Criminal Investigative Service (the investigative arm of the OIG,
DoD) and the Federal Bureau of Investigation. The prosecution
was conducted by Assistant U.S. Attorney's Dan Bach and Rita
Klemp, Madison, WI.

                                -End-
                                                               18

                                                     MAY 21 1997
MEMORANDUM FOR CORRESPONDENTS

    The Office of Inspector General (OIG), Department of Defense
(DoD), announced today that on May 20, 1997, United Technologies
Corporation, Pratt & Whitney (P&W), Government Engine and Space
Propulsion Division, West Palm Beach, FL, entered into a
settlement agreement with the Government in which P&W agreed to
pay $14.8 million to resolve a civil complaint filed by the
Department of Justice (DoJ) in April 1995. The civil complaint
charged that P&W violated the False Claims Act by preparing false
purchase orders and by submitting false invoices under the
Foreign Military Sales (FMS) Credit Program administered by the
Defense Security Assistance Agency (DSAA). The program involved
the FMS-funded Lavi Fighter Aircraft that had been under
development by the Israeli Air Force (IAF).

     An investigation disclosed that during the course of
designing and developing the PW1120 turbojet engine, as part of
the Lavi Program, officials of P&W entered into an agreement with
Rami Dotan, a former IAF Brigadier General, to submit $10 million
in false claims for projects not authorized or approved by either
the Israeli government or the DSAA. On August 31, 1987, the Lavi
Program was canceled and the contract was amended to have P&W
supply, among other things, upgrade kits for the P&W F100 engines
installed in the IAF F15 fleet. The investigation further
disclosed that upon cancellation of the program, P&W officials
agreed to set aside the $10 million to be used at the direction
of Dotan and former IAF Lieutenant Colonel Nehemiah Oron.
Between 1987 and 1990, over $2 million of the $10 million was
paid to Yrretco, Incorporated (Yrretco), and Airtech,
Incorporated (Airtech), two New Jersey based subcontractors that
were owned by Yoram Ingbir, an Israeli subcontractor and
associate of Dotan and Oron. The profits made by Yrretco and
Airtech were diverted to accounts controlled by Ingbir in New
York, Florida and Switzerland. As part of the settlement, P&W
will repay those funds that remained on account with the
corporation. Currently, Ingbir is under indictment in Israel for
bribery.

    The investigation was conducted by the Defense Criminal
Investigative Service (the investigative arm of the OIG, DoD),
with audit assistance provided by the Defense Contract Audit
Agency. Litigation was handled by Trial Attorneys Shelley Slade,
Mike Taxay and Benjamin Vernia, Commercial Litigation Branch, DoJ
Civil Division, Washington, D.C.

                                -End-
